                  PROCUREMENT AND
                    CONTRACTING

                            EXECUTIVE SUMMARY
We found that the Commission has generally implemented the provisions of the Federal
Acquisition Streamlining Act. It has also taken appropriate action on recommendations
from a prior OIG review of major contracts.

The Office of Information Technology (OIT) has reorganized, and has plans to address
significant weaknesses in contracting for systems development. We are recommending
that it implement these plans. Our other recommendations to enhance procurement and
contracting include: ensuring that unneeded contract funds are promptly deobligated;
encouraging the regions to use blanket purchase agreements for repetitive purchases;
and training regional procurement staff.


OBJECTIVES, SCOPE, AND METHODOLOGY
Our primary objective was to determine whether the Commission appropriately
implemented the provisions of the Federal Acquisition Streamlining Act. We also sought
to review actions taken on recommendations in a prior audit of major contracts (Audit
No. 239), and to address a significant OIT weakness in contracting and project
management (described in our recent semi-annual Congressional reports).

During the audit, we interviewed Commission procurement staff; reviewed procurement
policies and procedures, and other relevant documentation; and examined a judgment
sample of twenty small purchases awarded in fiscal year 1998, and seven ongoing OIT
contracts, among other procedures.

The audit was performed between November 1998 and May 1999 in accordance with
generally accepted government auditing standards.


                                   BACKGROUND
The Federal Acquisition Streamlining Act (FASA) of 1994 aimed to promote economy
and efficiency in contracting. FASA allowed procurements under $100,000 to be
awarded as small purchases, under simplified procedures, if agencies publicized them
electronically.




AU D I T R E P O R T N O . 2 9 0                               SEPTEMBER 21, 1999
                                                                                          Page 2


FASA encouraged the use of simplified and cost effective procedures such as the use of
imprest funds, purchase orders, blanket purchase agreements, and the government
wide credit card. For large procurements, it encouraged the use of multiple indefinite
quantity contracts under a single solicitation (known as Government Wide Acquisition
Contracts, or GWAC).

The Office of Administrative and Personnel Management (OAPM) has overall
responsibility for Commission procurement and contracting. OAPM’s Procurement and
Contracting Branch processes and approves headquarters purchase orders and
contracts, based on requisitions submitted by user offices. Generally, the Branch Chief
or other branch staff act as the Contracting Officer, while staff in the user offices act as
the Contracting Officer’s Technical Representative (COTR). The field offices have
authority to issue their own purchase orders and contracts, within defined limits.


                                       AUDIT RESULTS
We found that the Commission has generally implemented the provisions of FASA. It
publicizes procurements on its Web site, which raises the threshold for small purchases
to $100,000 (from $25,000). During the first quarter of fiscal year 1999, 391 out of 420
procurements, or 93%, were small purchases.

OAPM has also issued guidance on use of simplified procurement methods, including
SECR 10-4, Blanket Purchase Agreements, and SECR 10-6, The Government Wide
Commercial Credit Card Program. OIT has participated in GWACs of the Department of
Transportation, National Institute of Health, and General Services Administration, and
has developed a solicitation (ITTOC) for a its own multiple award contract similar to a
GWAC.

Procedures for deobligating unneeded contract funds need improvement. Over $1
million in funds from fiscal years 1997 and 1998 needs to be deobligated. We estimate
that $300,000 in fiscal year 1999 contract obligations may also be available for
deobligation.

Generally, we found that OAPM took action on the recommendations in a prior Office of
Inspector General (OIG) audit of major contracts. 1 OIT has plans to improve contracting
and management of large systems development projects. Our detailed findings and
recommendations follow.


DEOBLIGATION OF CONTRACT FUNDS
Among other tests, we examined deobligation of contract funds after purchase orders or
blanket purchase agreements (BPAs) ended. We expanded our testing when we found
evidence that deobligation was not being performed timely, for a variety of reasons.
These included reassignment of Contracting Officers’ Technical Representatives
(COTRs); insufficient knowledge of deobligation procedures by COTRs; and insufficient
written guidance.


1
    This audit was performed by a contractor under a task order with the OIG.



    AU D I T R E P O R T N O . 2 9 0                                            SEPTEMBER 21, 1999
                                                                                                   Page 3


By scanning accounting records, we identified 91 purchase orders or BPAs from fiscal
years 1997 and 1998 with total outstanding balances over $1 million. These balances
need to be deobligated.

Similarly, we identified over $500,000 in outstanding balances for 79 procurements from
fiscal year 1999. Based on spending trends to date, we estimate that $300,000 of this
amount may be available for deobligation. 2

Recommendation A
The Office of Administrative and Personnel Management (OAPM), in consultation with
the Office of the Comptroller and the Office of the Executive Director, should issue
detailed guidance to divisions and offices for timely deobligation of contracts. The
guidance should include procedures for notifying the Comptroller’s Office when purchase
orders or BPAs expire, and for ensuring continuity in contract administration when
COTRs are reassigned. Because of staff turnover, OAPM should reissue the guidance
periodically as a reminder.


CONTRACTING FOR SYSTEM DEVELOPMENT PROJECTS
OIT has recognized that its contracting and management of system development
projects needs improvement. Among other actions, It has reorganized and established
an Office of Planning and Project Management.
Senior staff in that office briefed us on the planned improvements. These plans are
expected to be implemented over the next year, and will be applied to new rather than
existing projects.
OIT intends to institute enhanced procedures for approval of major projects (defined as
over $25,000 and more than one month in duration). User requests and justifications will
be forwarded to OIT, which will perform a preliminary analysis and cost estimate. Then
the project will be reviewed by the Information Technology Capital Planning Committee
(ITCPC), which has representatives from the Chairman’s Office, the Office of the
Executive Director, OIT, and a user office.
If the project is approved by the ITCPC, OIT will prepare a detailed requirements
analysis and refine its cost estimate. The ITCPC would have to approve substantial
changes in estimated costs. Approved projects would be monitored through software
project management tools OIT has recently acquired.
 OIT indicated that support from users and senior management will be necessary for the
success of these changes. Also needed will be information on the Commission’s
strategic direction (to help plan the information systems architecture).
OIT staff stated that a life cycle management tool it has acquired (processMax by
pragmaSystems), if fully implemented and consistently utilized, can result in
organizations operating at level 2 in the Software Engineering Institute’s Capability
Maturity Model (CMM). According to OIT, operating at CMM level 2 requires the
consistent implementation of repeatable processes that span the software development
life cycle.

2
    During our review, the Office of Administrative and Personnel Management began to examine contracts
    for which it is the using office (e.g., the Print Shop’s), to identify OAPM funds that can be deobligated.



    AU D I T R E P O R T N O . 2 9 0                                               SEPTEMBER 21, 1999
                                                                               Page 4


Recommendation B
OIT, in consultation with the Office of the Executive Director, the Capital Planning
Committee, and user offices, should implement its planned changes to contracting and
project management for software development (i.e., enhanced procedures for approval
of major projects, use of project management software).


USE OF BLANKET PURCHASE AGREEMENTS
As stated in SECR Regulation 10-4, blanket purchase agreements (BPAs) can reduce
paperwork and administrative costs for repetitive purchases from one or more vendors.
A blanket purchase agreement establishes prices and terms for ordering. Then,
individual purchases can be made by telephone, rather than through a written purchase
order.

By reviewing fiscal year 1998 accounting records, we identified 45 small purchase
orders placed with four sellers in the regional offices. These purchases (generally, for
office supplies and court reporter services) could have been handled more efficiently
through a BPA.

Recommendation C
The Office of Administrative and Personnel Management should encourage regional
offices to use blanket purchase agreements when appropriate (or a credit card).



PROCUREMENT TRAINING
Regional administrative contacts generally are responsible for procurement
administration, including acting as the Contracting Officer’s Technical Representative
(COTR). The eleven regional contacts told us that they have not received training in the
Federal Acquisition Streamlining Act, or in the duties of a COTR. Without this training,
they may not use the most efficient procurement methods (such as a BPA rather than
individual purchase orders; see above finding).

Recommendation D
The Office of Administrative and Personnel Management should provide appropriate
procurement training to regional administrative contacts, including use of BPAs and
credit cards.




 AU D I T R E P O R T N O . 2 9 0                                 SEPTEMBER 21, 1999
